                       U.S. Environmental Protection Agency                                                    09-P-0189
                                                                                                            June 30, 2009
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s 1310 L Street Building
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing of EPA’s 1310 L Street building’s network conducted in
Environmental Protection          April 2009 indicated several high-risk vulnerabilities. If not resolved, these
Agency’s (EPA’s) compliance       vulnerabilities could expose EPA’s assets to unauthorized access and potential
with the Federal Information      harm to the Agency’s network.
Security Management Act
(FISMA). Williams, Adley &         What Williams, Adley & Company, LLP, Recommends
Company, LLP, conducted the
network vulnerability testing     Williams, Adley & Company, LLP, recommends that the Senior Information
of the Agency’s network for       Officials for the Office of Air and Radiation and Office of Administration and
EPA’s 1310 L Street building      Resources Management:
located in Washington, DC.
This building houses              •   Implement actions to resolve all high-risk vulnerability findings.
employees in EPA’s Office of
                                  •   Update EPA’s Automated Security Self Evaluation and Remediation
Air and Radiation.
                                      Tracking (ASSERT) system.
Background                        •   Perform a technical vulnerability assessment test within 30 days to
                                      demonstrate and document corrective actions that have resolved the
The network vulnerability             vulnerabilities.
testing was conducted to
identify any network risk         Due to the sensitive nature of the report’s technical findings, the full report is not
vulnerabilities and present the   available to the public.
results to the appropriate
EPA officials to promptly
remediate or document
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
